JUNE 5, 2013
  AUDIT REPORT




                                                      OFFICE OF AUDITS




  NASA’S INFORMATION TECHNOLOGY GOVERNANCE




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-13-015 (ASSIGNMENT NO. A-12-018-00)
Final report released by:




Paul K. Martin
Inspector General




Acronyms

BSMB       Business System Management Board
CIO        Chief Information Officer
CISO       Chief Information Security Officer
ECAB       Enterprise Change Advisory Board
FY         Fiscal Year
GAO        Government Accountability Office
IT         Information Technology
ITMB       Information Technology Management Board
IT PMB     Information Technology Program Management Board
ITSAB      Information Technology Security Advisory Board
I3P        Agency IT Infrastructure Integration Program
MSC        Mission Support Council
NPD        NASA Policy Directive
NPR        NASA Procedural Requirements
OCIO       Office of the Chief Information Officer
OIG        Office of Inspector General
OMB        Office of Management and Budget
SOC        Security Operations Center
USPS       United States Postal Service
VA         Department of Veterans Affairs


                                                             REPORT NO. IG-13-015
JUNE 5, 2013




                                                                                          OVERVIEW

             NASA’S INFORMATION TECHNOLOGY GOVERNANCE

                                                                                            The Issue

  Information technology (IT) plays an integral role in every facet of NASA‟s space,
  science, and aeronautics operations. The Agency spends more than $1.5 billion annually
  on a portfolio of IT assets that includes approximately 550 information systems it uses to
  control spacecraft, collect and process scientific data, provide security for its IT
  infrastructure, and enable NASA personnel to collaborate with colleagues around the
  world. Hundreds of thousands of individuals, including NASA personnel, contractors,
  members of academia, and the public, rely on these IT systems daily.

  IT governance is a process for designing, procuring, and protecting IT resources.
  Because IT is intrinsic and pervasive throughout NASA, the Agency‟s IT governance
  structure directly affects its ability to attain its strategic goals. For this reason, effective
  IT governance must balance compliance, cost, risk, security, and mission success to meet
  the needs of internal and external stakeholders.

  In 2011, the Office of Management and Budget (OMB) issued a memorandum shifting
  the primary responsibilities of Federal Chief Information Officers (CIO) from
  policymaking and infrastructure maintenance to IT portfolio management.1 The
  memorandum mandated that Federal agencies equip their CIOs with authority over IT
  governance, commodity IT, program management, and information security.2

  For over 2 decades, NASA has struggled to implement an effective IT governance
  approach that appropriately aligns authority and responsibility commensurate with the
  Agency‟s overall mission. Since at least 1990, the Government Accountability Office
  (GAO) and NASA‟s Office of Inspector General (OIG) have highlighted a series of
  challenges stemming from the limited authority of the Agency CIO, decentralization of
  Agency IT operations, ineffective IT governance, and shortcomings in the Agency‟s IT
  security.3 Reports by GAO and OIG have noted that NASA has limited Agency-level
  oversight of its wide-ranging IT operations, and recently, the OIG reported that the

  1
      Office of Management and Budget “Chief Information Officer Authorities,” M-11-29, August 8, 2011.
  2
      Commodity IT includes hardware, software, and technology services such as data centers, IT
      infrastructure, and mobile devices.
  3
      GAO, “Administrative Systems: NASA Should Reassess Its AIM Program and Rescind Its IBM-
      Compatible Policy” (GAO/IMTEC-90-41, May 1, 1990). GAO, “NASA Chief Information Officer:
      Opportunities to Strengthen Information Resources Management” (GAO/AIMD-96-78, August 15, 1996).
      NASA OIG, “Final Memorandum on Review of Organization Structure and Management of Information
      Technology and Information Technology Security Services at NASA” (IG-05-013, March 30, 2005).



REPORT NO. IG-13-015
                                                                                                          OVERVIEW



     NASA CIO could not fully account for the Agency‟s IT assets or ensure those assets
     complied with applicable IT security policies and procedures.4

     We initiated this audit to examine whether NASA‟s current IT governance structure
     appropriately aligns authority and responsibility to support the overall mission of the
     Agency. Specifically, we reviewed whether NASA‟s Office of the Chief Information
     Officer (OCIO) has the organizational, budgetary, and regulatory framework needed to
     effectively meet the Agency‟s varied missions.

     Results

     The decentralized nature of NASA‟s operations and its longstanding culture of autonomy
     hinder the Agency‟s ability to implement effective IT governance. The Agency CIO has
     limited visibility and control over a majority of the Agency‟s IT investments, operates in
     an organizational structure that marginalizes the authority of the position, and cannot
     enforce security measures across NASA‟s computer networks. Moreover, the current IT
     governance structure is overly complex and does not function effectively. As a result,
     Agency managers tend to rely on informal relationships rather than formalized business
     processes when making IT-related decisions. While other Federal agencies are moving
     toward a centralized IT structure under which a senior manager has ultimate decision
     authority over IT budgets and resources, NASA continues to operate under a
     decentralized model that relegates decision making about critical IT issues to numerous
     individuals across the Agency, leaving such decisions outside the purview of the NASA
     CIO. As a result, NASA‟s current IT governance model weakens accountability and does
     not ensure that IT assets across the Agency are cost effective and secure.

     Limited CIO Control of IT Funding and Investments. We found that the Agency CIO
     had little control and visibility over the majority of NASA‟s IT budget. Of the
     $1.46 billion allocated for IT in fiscal year (FY) 2012, the Agency CIO had direct control
     of $159 million or 11 percent, the Centers had direct control of $393 million or
     27 percent, and the Mission Directorates controlled the remaining $912 million or
     62 percent.5 An anecdote recounted to us during our review illustrates the CIO‟s limited
     visibility and control of NASA‟s overall IT spending. According to the Agency CIO,
     although planned IT expenditures for FY 2010 were $1.6 billion, the Agency actually
     spent $2 billion. However, the CIO was unaware of the $400 million in additional
     spending until the Mission Directorates reported actual expenditures to her office in a
     data call responding to an OMB request. We also determined that the Agency CIO‟s lack
     of authority over IT funding limits the Agency‟s ability to consolidate IT expenditures to

     4
         NASA Inspector General, testimony before the Subcommittee on Investigations and Oversight, House
         Committee on Science, Space, and Technology, February 29, 2012.
     5
         NASA has four Mission Directorates – Aeronautics Research, Human Exploration and Operations,
         Science, and Space Technology – responsible for carrying out the Agency‟s core programmatic mission.
         Approximately 12 percent of this funding pays for the Mission Directorates‟ institutional IT spending for
         items such as laptops, email, and printers.



ii                                                                                         REPORT NO. IG-13-015
OVERVIEW



  realize cost savings and drive improvements in the delivery of IT services. With
  decreased budgets across the Federal Government and the reduction of NASA‟s IT
  budget by almost $1 billion since 2006, it is imperative that NASA find efficiencies in its
  IT operations, purchases, and investments.

  Organizational Structure Marginalizes the Agency CIO. We found that NASA‟s
  organizational structure marginalizes the position and authority of the CIO. When NASA
  established the CIO position in 1995, it purposely limited the authority of the position to
  preserve control by the Mission Directorates and Centers over the IT assets related to
  their space, science, and aeronautics programs. Despite technological advances over the
  intervening 17 years and integration of IT into all Agency programs, the role of the
  NASA CIO has changed very little. Each Mission Directorate and each NASA Center
  continues to employ their own CIO and IT security personnel who oversee hundreds of
  independently operated networks and tens of thousands of computers and other IT
  hardware over which the Agency CIO has little control or oversight. Moreover, although
  the Center CIOs report to the Agency CIO, the Mission Directorate CIOs do not. We
  found that this partitioning of authority and control has not served the Agency well in
  terms of securing its IT systems or achieving economies and efficiencies in IT
  acquisitions and management.

  NASA employs 1 CIO at the Agency level, 10 CIOs at the Center level, 1 CIO at the Jet
  Propulsion Laboratory, 1 CIO at the NASA Shared Services Center, and 1 CIO within
  each of the Mission Directorates.6 Having numerous officials with the same title and
  similar roles as the Agency CIO, some of whom do not report to the CIO, dilutes the
  CIO‟s authority and blurs the lines of accountability and responsibility for overseeing
  NASA‟s IT systems. Moreover, the Agency CIO is the only one of seven “Chief”
  positions at NASA that does not report directly to the Agency Administrator, a reporting
  structure that is out of line with Federal policy and best practices.7 In our judgment,
  affording the Agency CIO the same visibility as the other “Chiefs” would send a message
  about the significance of IT and better ensure that NASA‟s IT posture aligns with the
  strategic direction of the Agency.

  The issues currently challenging the NASA CIO are not new and we and others have
  raised them repeatedly since NASA established the position almost 2 decades ago. While
  recognizing the problem, the OCIO has often advocated solutions that rely on “improved
  collaboration” between the OCIO, the Centers, and the Mission Directorates.8 While
  coordination and collaboration are important components of any IT strategy, we do not
  believe they alone will be sufficient to overcome the significant and longstanding issues

  6
      The NASA Shared Services Center is a partnership between NASA and a contractor that consolidates
      certain support functions such as financial management, human resources, IT, and procurement.
  7
      The Chief Financial Officer, Chief Scientist, Chief Technologist, Chief Engineer, Chief Safety and
      Mission Assurance, and Chief Health and Medical Officer all report to the Administrator. See 44 USC
      Chapter 35, Coordination of Federal Information Policy.
  8
      NASA Draft Report “Implementation of Administrative Remedy Regarding Cyber Security” pursuant to
      H.R. 112-169 accompanying H.R. 2596.



REPORT NO. IG-13-015                                                                                        iii
                                                                                                      OVERVIEW



     we and others have identified. NASA‟s diffuse responsibility for IT matters prevents the
     Agency CIO from taking and enforcing meaningful actions and instead, often reduces the
     position to issuing calls for increasing “cooperation and communication” – calls that at
     least up to this point largely have gone unanswered. In short, NASA‟s culture and
     current structure hinders the CIO‟s ability to implement and enforce new IT initiatives
     across the Agency.

     Responsibilities and Interaction between IT Boards Unclear. In addition to the
     various layers of CIOs and associated IT personnel, NASA‟s IT governance structure
     includes three primary governance boards that report to the Mission Support Council
     (MSC) as well as numerous sub-boards and working groups.9 We found that the
     complexity of the board structure and a lack of documentation and training to explain the
     interrelationship of the boards has led to confusion among Agency IT personnel about the
     roles and responsibilities of the boards and diminished their value to the governance
     process. While the design of NASA‟s IT governance structure requires coordination and
     collaboration between the boards, in practice, IT managers are often unsure of the
     interrelation and function of the various boards and how decisions are intended to be
     made. Even though Mission Directorates are not required to utilize the boards for
     Mission specific IT decisions, the Mission Directorate CIOs cited time constraints,
     impact on Mission security, and potential non-approval by the Agency CIO as reasons to
     circumvent the board process. Moreover, NASA policy, including the charters for each
     of the boards, does not provide clear guidance or criteria for determining the issues or
     initiatives that must go before the boards for approval. As a result, NASA IT managers
     tend to rely on informal relationships rather than formalized business processes when
     making IT decisions.

     CIO Cannot Enforce Security Measures over a Majority of NASA IT Assets. Over
     the past several years, our audits have repeatedly identified poor management processes
     and inadequate operational and technical controls that affect NASA‟s ability to protect
     the information and IT systems vital to its mission. Although the Agency CIO is
     responsible for developing IT security policies and procedures and implementing an
     Agency-wide IT security program, because the CIO lacks authority and control over
     Mission networks, the CIO is unable to enforce the implementation of IT security
     programs on a large portion of NASA‟s IT assets.

     In 2012 Congressional testimony, the CIO acknowledged that the Agency‟s culture does
     not support building effective cyber security processes, and stated that the largest
     impediment to effective IT security is persuading and changing the Mission Directorate
     culture.10 Mission Directorates often fund their own computer networks and Directorate
     personnel are responsible for IT security, risk determination, and risk acceptance on those
     networks, limiting the ability of the Agency CIO to standardize those assets across the
     9
         The Mission Support Council is the Agency‟s senior decision-making body regarding the integrated
         Agency mission support portfolio, inclusive of IT.
     10
          NASA CIO, testimony before the Subcommittee on Investigations and Oversight, House Committee on
          Science, Space, and Technology, February 29, 2012.



iv                                                                                      REPORT NO. IG-13-015
OVERVIEW



  Agency or ensure they adhere to security policies. Further, the OCIO‟s internal
  continuous monitoring function, the Security Operations Center (SOC), does not have
  purview over all of NASA‟s networks. According to the NASA IT Security Operations
  Manager, the SOC currently has visibility over approximately 90 percent of NASA‟s
  institutional networks but only over a very small portion of the Agency‟s Mission
  networks. As a result, the SOC relies on the Mission Directorates to self-report
  vulnerabilities and security incidents.

  NASA‟s ability to secure its networks is further complicated because the Agency lacks a
  complete inventory of IT assets. For example, five Center CIOs told us they could not
  account for 100 percent of the IT systems and hardware at their Centers. Center Chief
  Information Security Officers (CISO) told us that the Agency‟s efforts to establish an
  inventory have been hindered by inconsistent enforcement of the policies and
  implementation of the tools meant to capture the information, pockets of resistance to
  providing the information, and inconsistent or lack of guidance from OCIO IT security
  management.

  IT Governance across Government. Although NASA‟s mission is unique, the
  challenges the Agency faces in managing a decentralized IT environment are not. As
  part of this review, we benchmarked with IT officials at the Department of Interior, the
  Department of Veterans Affairs, and the United States Postal Service. Each of these
  organizations had a decentralized IT environment that was geographically diverse,
  independently operated, and that supported thousands of users. With support from
  Congress and agency leaders, each organization revamped their IT governance model and
  moved from decentralized IT systems to a more consolidated, centralized structure giving
  the CIO authority over IT budgets and resources agency-wide. Officials from each of
  these organizations reported that centralization – while time consuming and not without
  its detractors – has resulted in increased efficiency, security, and lower operating costs
  for their agencies.

                                                                Management Action

  For almost 2 decades, the OIG and GAO have reported issues associated with NASA‟s
  limited CIO authority, decentralized IT operations, and ineffective IT governance.
  Although division of authority between Headquarters management, the Mission
  Directorates, and the Centers is historically the cornerstone of NASA‟s program and
  project governance, in our view mirroring this structure for managing IT purchases,
  operations, and security is no longer in the Agency‟s best interest. With mission critical
  assets at stake and shrinking budgets, NASA must take a holistic approach to managing
  its portfolio of IT systems.

  To overcome the barriers that have resulted in the inefficient and ineffective management
  of the Agency‟s IT assets and operations, we recommend that NASA overhaul its IT
  governance structure to centralize IT functions and establish the Agency CIO as the top
  management official responsible for NASA‟s entire IT portfolio. Strong leadership by


REPORT NO. IG-13-015                                                                           v
                                                                                      OVERVIEW



     the CIO and OCIO staff will be required, but the CIO cannot make these changes alone.
     Rather, the NASA Administrator – backed by support and possibly additional resources
     from Congress – must be the driving force behind such organizational change. With the
     recent departure of the Agency CIO, NASA currently has a prime opportunity to
     reevaluate its IT organizational structure and personnel resources to ensure it is best
     positioned to meet its IT challenges.

     Therefore, we recommend the NASA Administrator – in consultation with the Mission
     Directorate and Center CIOs and the Agency‟s senior management team – consolidate the
     overall governance of IT within the OCIO and ensure the OCIO has adequate visibility
     into Mission-related IT assets and activities. The Agency CIO should approve all IT
     procurements over an established monetary threshold that captures the majority of IT
     expenditures, regardless of procurement instrument. Additionally, the Administrator
     should make the Agency CIO a direct report and revise the job titles of the Center and
     Mission Directorate CIOs to more clearly delineate roles and responsibilities. Further,
     the renamed Mission Directorate CIO positions should directly report to the Agency CIO.
     We also recommend that the Administrator reevaluate the relevancy, composition, and
     purpose of the three primary governance boards in light of the changes made to the IT
     governance structure and require the use of reconstituted governance boards for all major
     IT decisions and investments. Further, we recommend revision of the board charters to
     include all information critical to ensuring the effective use of the boards and
     development of a plan to educate IT managers and personnel regarding the roles and
     responsibilities of the boards. Finally, in light of the changes recommended in this
     report, the NASA Administrator should reevaluate the resources of the OCIO to ensure
     that the Office has the appropriate number of personnel with the appropriate capabilities
     and skill sets.

     In response to a draft of this report, NASA‟s Administrator concurred or partially
     concurred with our recommendations and proposed corrective actions to improve
     NASA‟s IT governance. We consider the Administrator‟s planned actions responsive
     and will close the recommendations upon verification that the Agency has completed
     them.

     Management‟s response is reprinted in Appendix B.




vi                                                                        REPORT NO. IG-13-015
JUNE 5, 2013




                                                        CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives _________________________________________ 12

  RESULTS
      NASA’s IT Governance Is Ineffective _____________________ 13

  APPENDIX A
      Scope and Methodology _______________________________ 33
      Review of Internal Controls ____________________________ 34
      Prior Coverage ______________________________________ 34

  APPENDIX B
      Management Comments ______________________________ 36

  APPENDIX C
      Report Distribution ___________________________________ 41




REPORT NO. IG-13-015
JUNE 5, 2013




                                                                                  INTRODUCTION


Background

  Information technology (IT) plays an integral role in every facet of NASA‟s space,
  science, and aeronautics operations. The Agency spends more than $1.5 billion annually
  on a portfolio of IT assets that includes approximately 550 information systems with
  140,000 components it uses to control spacecraft, collect and process scientific data,
  provide security for its IT infrastructure, and enable NASA personnel to collaborate with
  colleagues around the world. One of NASA‟s most valuable assets is the technical and
  scientific information generated by its research, science, engineering, technology, and
  exploration initiatives. The Agency relies on computer networks and systems to collect,
  access, and process this information, including mission-critical, proprietary, or otherwise
  sensitive data.

  In the broadest sense, governance refers to the rules, processes, and laws pursuant to
  which an organization operates and is regulated and controlled. In the IT context,
  governance is the process that seeks to ensure the effective and efficient use of IT
  resources and provides the structure for integration of those resources across an
  organization. An effective IT governance model is critical to accommodating the varied
  interests of internal and external stakeholders and making decisions that balance
  compliance, cost, risk, and mission success. Conversely, ineffective IT governance can
  result in security breaches, increased costs, missed deadlines, and provision of low
  quality IT products and services.

  Federal Information Technology Policy. The Clinger-Cohen Act of 1996 makes
  Federal agency Chief Information Officers (CIO) responsible for advising agency heads
  on IT investments and improving the way Federal agencies acquire and manage IT
  resources. The Act requires that each agency establish a CIO position with clear
  accountability for IT management.11 In 2010, the Federal CIO released a “25-Point Plan”
  for IT reform across the Federal Government that outlined a series of initiatives to
  improve the management of IT assets and reform the execution, oversight, and
  transparency of Federal IT operations.12 One initiative focuses on streamlining IT
  governance and improving accountability for IT portfolios by (1) redefining the role of
  Agency CIO; (2) reforming and strengthening review boards that analyze potential IT
  investments; and (3) implementing face-to-face, evidence-based reviews of agency IT
  programs.


  11
       Public Law 104–106 (1996), codified at 40 U.S.C. 1425.
  12
       U.S. Chief Information Officer, 25 Point Implementation Plan to Reform Federal Information
       Technology Management, December 9, 2010.



REPORT NO. IG-13-015                                                                                1
                                                                                                 INTRODUCTION



    In 2011, the Office of Management and Budget (OMB) followed up the 25-Point Plan
    with a memorandum that shifts the primary responsibilities of Federal CIOs from
    policymaking and infrastructure maintenance to portfolio management.13 Specifically,
    OMB mandated that Federal agencies give their CIOs authority for IT governance,
    commodity IT, program management, and information security.14 In addition, OMB
    instructed CIOs to lead the review process for Agency IT investments, justify those
    investments, and eliminate duplication. According to OMB, agencies should position
    their CIOs so they have authority and primary responsibility for implementing an agency-
    wide program that provides security for both the information collected and maintained by
    the agency and the information systems that support the agency‟s operations, assets, and
    mission. Furthermore, agency CIOs are to improve the overall management of large
    Federal IT projects by identifying, recruiting, and hiring top IT program management
    talent.

    NASA’s IT Organizational Structure. NASA consists of a Headquarters Office in
    Washington, DC; nine geographically dispersed Centers; and the Jet Propulsion
    Laboratory, a federally funded research and development center operated under contract
    by the California Institute of Technology.15 Historically, NASA has operated as a
    decentralized organization based on the philosophy that its Centers and project managers
    should be given as much freedom and autonomy as possible to accomplish the Agency‟s
    mission. Consistent with this philosophy, the Agency‟s organizational structure has three
    primary levels: Agency or “corporate” management, program or project management,
    and Center management.

    Agency management, including the Administrator and Deputy Administrator, is located
    primarily at NASA Headquarters and responsible for providing NASA‟s strategic
    direction, top-level requirements, schedules, and budgets. Also part of the Headquarters
    operation is the Mission Support Directorate and the Offices of the Chief Scientist, Chief
    Technologist, Chief Engineer, Chief Financial Officer, Chief Health and Medical Officer,
    Chief of Safety and Mission Assurance, and the CIO. All of the chief positions except
    the CIO report directly to the Administrator while the CIO reports to the Deputy
    Administrator.

    NASA has four Mission Directorates, each led by an Associate Administrator:
    Aeronautics Research, Human Exploration and Operations, Science, and Space
    Technology.16 The Associate Administrators, who also are located at NASA
    Headquarters, are responsible for managing their Directorate‟s portfolio of programs and

    13
         Office of Management and Budget, “Chief Information Officer Authorities” M-11-29, August 8, 2011.
    14
         Commodity IT includes hardware, software, and technology services such as data centers, IT
         infrastructure, mobile devices, and security.
    15
         NASA also has six supporting facilities and the NASA Shared Services Center, a partnership between
         NASA and a contractor to consolidate certain support functions such as financial management, human
         resources, IT, and procurement.
    16
         The NASA Administrator reorganized existing personnel and infrastructure to create the Space
         Technology Mission Directorate in February 2013.



2                                                                                       REPORT NO. IG-13-015
INTRODUCTION



  projects and have ultimate responsibility for their projects‟ mission success. Much of the
  work associated with Mission Directorate projects and programs, such as the new heavy
  lift rocket known as the Space Launch System, occurs at the NASA Centers.

  NASA Centers are led by Directors who are responsible for managing Center operations
  and determining how best to support the programs and projects located there. The
  Associate Administrators of the Mission Directorates depend on the Center Directors to
  provide and oversee the human and facility resources needed to execute Directorate
  programs and projects. Associate Administrators do not have decision-making authority
  regarding the day-to-day operations of the Centers and Center Directors do not provide
  programmatic direction to programs or projects. The Mission Directorate Associate
  Administrators and the Center Directors report to NASA‟s Associate Administrator, the
  most senior civil servant at the Agency. Figure 1 depicts NASA‟s organizational
  structure.


                       Figure 1. NASA’s Organizational Structure




  Source: NASA.




REPORT NO. IG-13-015                                                                           3
                                                                                           INTRODUCTION



    In many ways, NASA‟s IT infrastructure mirrors its overall organizational structure.
    Authority for developing IT policies and implementing an Agency-wide IT program lies
    with the Headquarters-based Agency CIO and staff of the Office of the Chief Information
    Officer (OCIO).17 The Agency CIO is responsible for providing leadership, planning,
    policy direction, and oversight of the management of NASA information and IT
    resources Agency-wide. The Agency CIO serves as the principal advisor to the
    Administrator and other senior officials on matters pertaining to IT and is responsible for
    ensuring that NASA acquires and manages its information assets in accordance with
    Federal policies, procedures, and legislation. The Headquarters OCIO is comprised of
    86 positions – 52 civil servants and 34 contractor staff.

    As shown in Figure 2, the OCIO has four divisions: (1) IT Security, which manages
    Agency-wide security operations and policy; (2) Capital Planning and Governance,
    which develops, implements, and promotes the use of information resource management
    policies, evaluates related practices, and determines compliance; (3) Technology and
    Innovation, which guides NASA‟s IT strategy and investment decisions, identifies
    emerging IT technologies, and addresses issues such as technology infusion,
    procurement, and future IT workforce development; and (4) Enterprise Service and
    Integration, which implements NASA‟s enterprise architecture, including networks, data
    centers, Web services, desktop computers, enterprise applications, and other end-user
    tools.

                                       Figure 2: OCIO Structure




                Source: NASA.

    NASA‟s IT assets generally fall into two broad categories: institutional and Mission.
    The institutional systems support the day-to-day work of NASA employees and include
    networks, data centers, Web services, desktop and laptop computers, enterprise business
    applications, and other end-user tools such as email and calendaring. The Mission
    17
         NASA Policy Directive (NPD) 1000.3D, “The NASA Organization,” December 3, 2008.



4                                                                                REPORT NO. IG-13-015
INTRODUCTION



  systems support the Agency‟s aeronautics, science, and space exploration programs and
  host IT systems that control spacecraft, collect and process scientific data, and perform
  other critical Agency functions. For example, the Human Exploration and Operations
  Mission Directorate operates the Deep Space Network, which provides critical
  communications and tracking for multiple spacecraft.

  The Mission Directorates fund the IT assets on NASA‟s Mission networks. Moreover,
  funding for the IT investments associated with many NASA programs and projects is
  embedded in the funding for the underlying mission. In fiscal year (FY) 2012, NASA
  spent 38 percent of its IT budget on institutional assets directly controlled by the OCIO or
  NASA Centers and the remaining 62 percent on assets controlled by the Mission
  Directorates.18

  Under NASA‟s current governance structure, the Agency CIO has little visibility into the
  Agency‟s Mission IT assets. Each Mission Directorate employs a CIO and IT security
  personnel who report through the Directorate‟s management chain rather than to the
  Agency CIO. The Mission Directorate CIO and IT personnel are responsible for security,
  risk determination, and risk acceptance for the Mission networks and associated IT assets.
  This organizational structure provides the Agency CIO with limited insight and control
  over the security of NASA‟s Mission IT assets.

  Each NASA Center also employs a CIO and IT staff. For many years, Center CIOs
  reported to their respective Center Directors. In 2010, NASA revised this management
  structure and the Center CIOs now report to the Agency CIO.19 The Agency CIO has
  delegated to the Center CIOs the responsibility, authority, and accountability for the
  Centers‟ IT portfolios. Center CIOs are responsible for ensuring that Center IT activities
  align with Federal and Agency requirements and for supporting the Agency CIO‟s review
  of Center IT investments. The Center CIOs receive their funding through each Center‟s
  budget, not through the OCIO.

  NASA’s IT Governance. NASA appointed its first Agency CIO in February 1995.
  Although NASA empowered the CIO to establish Agency-wide IT policy, it limited the
  authority of the position to enforce those policies. For example, as originally designed
  the CIO did not control any part of the Agency‟s IT budget. NASA‟s position at the time
  was that budget authority was not necessary to ensure that Agency personnel followed
  CIO guidance.

  NASA also designed its CIO function to ensure that the CIO would not take part in
  individual program decisions or have responsibility for setting priorities, making trade-
  offs, or forming investment decisions relating to Agency-wide IT systems and



  18
       Approximately 12 percent of this funding pays for the Mission Directorates institutional expenses.
  19
       This reorganization mirrors management centralization efforts NASA made in other departments,
       including the Office of the Chief Financial Officer.



REPORT NO. IG-13-015                                                                                        5
                                                                                               INTRODUCTION



    programs.20 NASA‟s position was that the CIO would not be familiar with detailed
    program requirements and the Agency structured the position so that program offices and
    Centers would continue to independently manage their IT budgets and implement the
    systems needed to support their programs. Because of these restrictions, the CIO‟s
    responsibility was essentially limited to formulating high-level policy and managing
    cooperative initiatives to achieve efficiencies across administrative and crosscutting IT
    issues. Despite technological advances over the intervening 17 years and integration of
    IT into all Agency programs and projects, the role of the NASA CIO has changed very
    little and the Agency‟s IT governance structure continues to rest in large part on
    cooperation and coordination between three sets of CIO organizations.

    In addition to the CIOs, various boards and councils play a role in NASA‟s IT
    governance structure. The three primary boards for IT-related issues are the IT
    Management Board, the Business Systems Management Board, and the IT Program
    Management Board.

              The IT Management Board (ITMB) consists of the Agency CIO, the Deputy and
               Associate CIOs, the Center CIOs, and the Mission Directorate CIOs and makes
               decisions regarding the Agency‟s IT infrastructure strategy, operations, and
               budget. The ITMB is a forum for oversight and evaluation of Agency IT
               operations and maintenance and for reviewing and approving high-level
               requirements of critical infrastructure initiatives. For example, the ITMB
               oversees NASA‟s IT infrastructure and IT security budgets and makes
               recommendations relating to projects and investments such as the Security
               Operation Center (SOC) and penetration testing.21 The NASA CIO serves as the
               decision authority for the ITMB.

              The Business Systems Management Board (BSMB) includes representatives from
               the Mission Support Directorate; the Mission Directorates; the Centers; the
               ITMB; and the Offices of the Chief Financial Officer, CIO, and Chief Engineer.
               The BSMB oversees and makes decisions regarding strategy, operational
               performance, and budget priorities pertaining to the Agency‟s enterprise business
               systems. For example, decisions about travel management systems or electronic
               forms would go before the BSMB. The Deputy Associate Administrator for the
               Mission Support Directorate, and the Deputy Chief Financial Officer are co-chairs
               and serve as the decision authority for the BSMB.

              The IT Program Management Board (IT PMB) is chaired by either the NASA
               Deputy CIO or a Center CIO (as designated by the Agency CIO) and includes
               other OCIO employees and representatives from the Centers, Mission

    20
         GAO, “NASA Chief Information Officer: Opportunities to Strengthen Information Resources
         Management” (GAO/AIMD-96-78, August 1996).
    21
         The SOC provides centralized, continuous monitoring of computer network traffic entering and leaving
         NASA Centers and includes an information system (the Incident Management System) for Agency-wide
         coordination, tracking, and reporting of IT security incidents.



6                                                                                      REPORT NO. IG-13-015
INTRODUCTION



             Directorates, Office of the Chief Engineer, and the ITMB. The IT PMB oversees
             application and infrastructure projects during development and implementation
             and conducts key decision point reviews to ensure that projects meet cost,
             schedule, and scope commitments. All major IT development projects, such as
             the recent project to consolidate networks to the corporate network operations
             center, report to the IT PMB. The IT PMB makes recommendations to the
             Agency CIO, who is the decision authority for Agency infrastructure investments.

  All three boards report to the Mission Support Council (MSC), NASA‟s senior
  decision-making body for all aspects of the Agency‟s mission support portfolio, including
  IT.22 The MSC serves as the highest level IT governing body and approves large IT
  investments, divestments, and strategy.

  In addition to the primary boards, the NASA OCIO established the Enterprise Change
  Advisory Board (ECAB) as well as numerous sub-boards and working groups to review
  specialized technical issues such as social media and emerging technologies. According
  to its charter, the ECAB is responsible for reviewing proposed changes that have impacts on
  more than one IT service area with enterprise-wide consequences. The ECAB membership
  consists of executives from other boards, such as the End User Services Board, and
  representatives from the OCIO and the Centers. The ECAB reports to the ITMB for IT
  infrastructure-related issues and to the BSMB for business system-related issues. The
  ECAB also interfaces and coordinates with the other lower-level boards. Figure 3
  illustrates NASA‟s current IT governance structure.




  22
       The core membership of the MSC includes the Associate Deputy Administrator (chair), the Associate
       Administrator, the Associate Administrator for Mission Support, Chief Financial Officer, CIO, and Chief
       of Safety and Mission Assurance.




REPORT NO. IG-13-015                                                                                             7
                                                                                          INTRODUCTION




                             Figure 3. NASA IT Governance Structure




    CAC – Customer Advisory Council                      ITSAB – Information Technology Security
    CCB – Configuration Control Board                    Advisory Board
    DME - Develop, Modernize, Enhance                    IPv6 – Internet Protocol Version 6
    ESD – Enterprise Service Desk                        NEACC – NASA Enterprise Applications
                                                         Competency Center
    EuS – End User Services
                                                         NSSC – NASA Shared Services Center
    ICAM – Identity, Credential, and Access
    Management                                           SIM - Service Integration Management
    I3P – Agency IT Infrastructure Integration Program   WG – Working Group
    Source: NASA.

    Longstanding Concerns About NASA’s IT Governance. Historically, NASA has
    struggled to develop and effectively implement an IT governance approach that
    adequately aligns authority and responsibility with the overall mission of the Agency.
    For almost 2 decades, the NASA Office of Inspector General (OIG) and the Government
    Accountability Office (GAO) have reported issues stemming from the limited authority
    of the Agency CIO, decentralization of Agency IT operations, ineffective IT governance,
    and shortcomings in IT security. For example, in 1996 GAO reported that a CIO who
    had greater authority would be in a better position to foster economies and efficiencies,


8                                                                                 REPORT NO. IG-13-015
INTRODUCTION



  settle disputes among the Centers, and initiate standardization and consolidation of
  Mission-related IT projects, thereby achieving cost savings.23 NASA disagreed with the
  GAO and in its response to the report stated that the Agency‟s infrastructure derives
  strength and effectiveness through partnership, as opposed to a rigid, centralized
  compliance and control-based hierarchy.

  NASA has traditionally favored a decentralized management structure for its projects and
  operations. For example, in the beginning of the Manned Space Flight Program, NASA
  shifted the bulk of decision making downward from the Associate Administrator to
  Center Directors, the heads of program offices, and project managers. The strategy was
  intended to give the Centers the resources and authority they needed to get the job done,
  but not so much autonomy that their work would lose relevance to the Agency‟s overall
  mission and priorities.

  In March 2005, the OIG raised concerns about the organizational structure of the CIO
  offices at the Agency and Center levels, the limited Agency-level oversight of IT
  operations, and the OCIO‟s minimal involvement in the Agency‟s operations and budget
  activities.24 In response, NASA hired a contractor to conduct an independent study and
  provide recommendations for the optimal organization and structure of IT governance at
  the Agency. The study recommended: (1) strengthening the current IT management
  model to ensure appropriate decision-making authority and levels of accountability are in
  place; (2) adopting an appropriate governance structure for each of NASA‟s IT portfolios
  with Center and Mission Directorate CIOs reporting directly to the NASA CIO;
  (3) aligning the IT organization with the Agency‟s focus on strategic management of
  human capital to ensure appropriate levels and competencies of resources; and
  (4) implementing an operational structure under the Agency CIO that clearly
  communicates strategic and tactical IT plans and measure, evaluate, and publish
  indicators of IT performance against the plans. NASA did not formally respond to these
  recommendations, and none of the personnel we interviewed were aware of any changes
  resulting from the study.

  In December 2007, the OCIO conducted an internal assessment of NASA‟s IT
  management. The resulting report identified misalignments between IT management, the
  overall NASA mission, and the Agency‟s strategic plan. Subsequently, the Strategic
  Management Council tasked the CIO with developing a strategy in collaboration with the
  Center and Mission Directorate CIOs that would fully align the NASA IT environment to
  the Agency‟s mission and strategic plan.25 As a result, NASA made changes to its IT


  23
       GAO, “NASA Chief Information Officer: Opportunities to Strengthen Information Resources
       Management” (GAO/AIMD-96-78, August 15, 1996).
  24
       NASA OIG, “Final Memorandum on Review of Organization Structure and Management of Information
       Technology and Information Technology Security Services at NASA” (IG-05-013, March 30, 2005).
  25
       The Strategic Management Council is one of three councils that make up NASA‟s overall governance
       structure and is the senior decision-making body for strategic direction and planning. NASA uses these
       councils when decisions require high degrees of integration, visibility, and approval.



REPORT NO. IG-13-015                                                                                            9
                                                                                                    INTRODUCTION



     governance board structure and began developing an Agency-wide acquisition plan to
     procure IT infrastructure services.26

     In February 2012, the CIO testified before the House Committee on Science, Space, and
     Technology‟s Subcommittee on Oversight and stated that the largest impediment to
     effective IT security is persuading and changing the Mission Directorate culture. In
     2013, in response to a legislative directive, the NASA CIO drafted a report to Congress
     outlining the Agency‟s plan to address cyber security issues.27 The CIO recommended
     improving communication and collaboration among the OCIO, the Centers, and the
     Mission Directorates, but did not address the decentralization and related cultural issues
     noted in her February 2012 testimony.

     Figure 4 depicts the evolution of NASA‟s IT governance structure over the past 17 years.

                                  Figure 4. Evolution of NASA’s IT Governance




     Source: OIG analysis.


     Benchmarking. NASA‟s IT governance issues are not unique. Other Federal agencies
     have faced similar challenges related to decentralized IT management structures and
     limited CIO authority. To gain insight into lessons learned and industry best practices,
     we spoke with IT officials from the Department of the Interior (Interior), Department of
     Veterans Affairs (VA), and the United States Postal Service (USPS), all of which have

     26
          The acquisition plan is known as the IT Infrastructure Integration Program or I3P and provides end-user
          services and equipment, application service technologies, networking, and Web infrastructure services
          and equipment.
     27
          The directive was included in House Report 112-169, accompanying H.R. 2596, Fiscal Year 2012
          Commerce, Justice, Science, and Related Agencies appropriations bills.



10                                                                                         REPORT NO. IG-13-015
INTRODUCTION



  made substantial changes to their IT governance models in recent years. We selected
  these organizations based on similarities in size, IT architecture, and geographic
  dispersion relative to NASA.28

  Department of the Interior. Interior uses its IT systems and data for a variety of diverse
  purposes, including providing the public with information about national parks;
  collecting royalties; and monitoring wildlife, fires, earthquakes, tsunamis, and volcanic
  activity. According to the Interior CIO, for many years the Department‟s independently
  operated “franchise-like” bureaus controlled their own IT resources and assets, which
  resulted in an IT governance structure that was inefficient, wasteful, and lacked
  accountability. As with NASA, GAO and Interior‟s OIG repeatedly cited the Department
  for ineffective IT governance. For example, in 2009, the OIG reported that the
  Department faced broad problems stemming from a decentralized IT organization and
  “fragmented governance processes.”29 In 2010, the Secretary consolidated accountability
  and control of the Department‟s IT assets under its CIO. All of the Department‟s IT
  services, personnel, and infrastructure that had been owned and controlled by other
  offices were placed under the CIO‟s purview and Department employees were required to
  obtain prior approval from the CIO for all IT procurements over $2,500. The Secretary
  instructed the Department to complete this transition within 4 years.

  Department of Veterans Affairs. The VA consists of three administrations: the Veterans
  Health Administration (responsible for the VA health system), the Veterans Benefit
  Administration (responsible for veterans‟ pensions), and the National Cemetery
  Administration (responsible for administering burials and operating VA cemeteries). The
  largest of these, the Veterans Health Administration, has a budget of approximately
  $35 billion and oversees 155 medical centers, 872 ambulatory clinics, 135 nursing
  homes, 45 residential rehabilitation treatment programs, 209 veterans‟ centers, and
  108 comprehensive home-care programs, which in turn are affiliated with 107 medical
  schools, 55 dental schools, and more than 1,200 other schools nationally. In 2005, the
  VA began consolidating its sprawling, aging, and complex system of computer and
  communications technologies as part of a multi-year effort to centralize all IT budgeting,
  planning, and development, including full control of the IT budget and staff, under the
  Agency CIO.

  United States Postal Service. The USPS has annual revenue of more than $65 billion,
  delivers mail to 151 million addresses, and provides mailing services at 32,000 retail
  locations. USPS has the world‟s third-largest computing network, maintains one of the
  world‟s largest intranets, and has the most frequently visited website in the Federal
  Government. The USPS communications network maintains 125,000 desktop computers,
  21,000 notebook computers, and 85,000 printers. The USPS began the process of
  centralizing its IT governance structure in the early 1990s. In the ensuing years, the
  28
       In 2007, NASA OCIO benchmarked with the USPS on its IT security program, citing similar
       management characteristics.
  29
       Department of Interior OIG, “Fiscal Year 2009 FISMA Evaluation Report – Revised,” November 16,
       2009.



REPORT NO. IG-13-015                                                                                    11
                                                                                   INTRODUCTION



     USPS centralized all aspects of IT management under the Agency CIO, improving the
     organization‟s ability to leverage purchasing power, consolidate IT infrastructure on one
     network, and monitor that network for security threats.

     Objectives

     We initiated this audit to examine whether NASA‟s current IT governance structure
     appropriately aligns authority and responsibility to support the overall mission of the
     Agency. Specifically, we reviewed whether NASA‟s OCIO had the organizational,
     budgetary, and regulatory framework needed to fulfill the Agency‟s mission effectively.
     See Appendix A for details of the audit‟s scope and methodology, our review of internal
     controls, and a list of prior coverage.




12                                                                         REPORT NO. IG-13-015
RESULTS




                              NASA’S IT GOVERNANCE IS INEFFECTIVE
          Decentralized operations and a culture of autonomy for Centers and Mission
          Directorates have hindered NASA‟s ability to implement effective IT governance.
          Although Federal policies make agency CIOs accountable for agency IT assets, we
          found that the NASA CIO has limited visibility and control over a majority of the
          Agency‟s IT investments, operates in an organizational structure that marginalizes
          the authority of the position, and cannot enforce security measures across NASA‟s
          computer networks. We also found that NASA‟s IT governance board structure is
          overly complex and does not function effectively. Accordingly, when making IT
          decisions managers tend to rely on informal relationships rather than formalized
          business processes that consider input from the full range of stakeholders and ensure
          accountability. While other Federal agencies are moving to organizational structures
          that centralize IT decision-making authority in the agency CIO, NASA‟s IT
          governance model limits the CIO‟s authority, weakens accountability, and does not
          ensure that the Agency‟s IT assets are cost effective and secure.


Limited CIO Control of IT Funding and Investments

  NASA‟s CIO has little visibility or control over a large portion of the Agency‟s IT
  funding. For FY 2012, NASA‟s budget for IT operations and new asset acquisitions was
  $1.46 billion. As illustrated in Figure 5, the Agency CIO had direct control of only
  $159 million, or 11 percent of these funds. The Centers controlled $393 million, or
  27 percent of these funds, while the Mission Directorates controlled the remaining
  $912 million, or 62 percent. Moreover, the Agency CIO and many of the Center CIOs
  we spoke with stated that they lack visibility of Mission Directorate IT asset purchases
  because funding for Mission-related IT is often embedded in program and project
  funding.

  An anecdote recounted to us during our review illustrates this dynamic. According to the
  Agency CIO, although planned IT expenditures for FY 2010 were $1.6 billion, the
  Agency actually spent $2 billion. However, the CIO was unaware of the $400 million
  overage until the Mission Directorates reported actual expenditures to the OCIO in a data
  call needed to respond to an OMB request.




REPORT NO. IG-13-015                                                                          13
                                                                                                 RESULTS



                           Figure 5. Total FY 2012 IT Budget Responsibility



                                                           CIO
                                                           11%

                                                                         Centers
                                    Mission                               27%
                                  Directorates
                                      62%




     Source: NASA OCIO.

     In a November 2012 internal presentation, the OCIO identified several challenges that
     resulted from its lack of visibility over IT spending: difficulty obtaining financial data;
     having to rely on data calls for information about IT spending; difficulty in identifying IT
     expenditures embedded in task orders; reluctance by Center managers to identify IT
     funds for fear the funds might be redirected; and a significant amount of unplanned year-
     end IT spending. To address several of these issues, the OCIO is working with the Office
     of the Chief Financial Officer and the Office of the Chief Engineer to update the
     Agency‟s policies and financial system to give the Agency CIO greater visibility into IT
     expenditures. However, even with this increased visibility the Agency CIO will still
     learn of purchases only after they are made and continue to have no authority to approve
     expenditures before they occur.

     Our audit work over the years has identified similar issues. In September 2004, the
     NASA CIO established an Agency-wide process for selecting and managing IT capital
     investments. While the Agency CIO was responsible for establishing and updating the
     policy, the CIO relied on Mission Directorate and Center CIOs for policy execution and
     recommendations on how to prioritize investments. In a 2006 audit, we found numerous
     inconsistencies in the ways in which three Centers implemented the Agency CIO‟s
     policy.30 Specifically, two of the Centers used their own prioritization methodology
     because they did not believe they were required to comply with the Agency CIO‟s policy.
     Officials from the third Center stated they believed they were acting consistently with the

     30
          NASA OIG, “Final Memorandum of NASA‟s Information Technology Capital Planning and Investment
          Control” (IG-06-017, September 14, 2006).




14                                                                                 REPORT NO. IG-13-015
RESULTS



  policy requirements, even though they assigned investment scores that deviated from the
  established process for prioritizing and selecting investments. Because of these
  weaknesses, we concluded that the Agency CIO was unable to ensure consistency in
  NASA‟s IT investments.

  The Agency CIO‟s lack of visibility and approval authority over the majority of NASA‟s
  IT expenditures also limits NASA‟s ability to realize cost savings and improve the
  delivery of IT services. For example, NASA‟s I3P initiative is an effort to centralize
  purchases of IT infrastructure services such as networks, Web technologies, and
  applications. However, even with the implementation of I3P, Mission Directorates and
  Centers still have authority to make many IT purchases without the OCIO‟s review or
  approval. One Center Chief Information Security Officer (CISO) told us that Centers are
  free and indeed often required to perform their own requirements analyses, product
  evaluations, and product purchases, leading to the purchase of inconsistent and
  sometimes duplicative tools existing at different Centers at an increased overall cost to
  NASA. To this point, our office recently reported that NASA does not have a process
  that captures, consolidates, and assesses IT security tool requirements across the
  Agency.31 Because of this deficiency, the Agency made 242 separate purchases of IT
  security assessment and monitoring tools at a cost of $25.7 million without Agency-wide
  coordination. With the IT budget decreasing by almost $1 billion over the last 6 years, it
  is imperative that the Agency increase efficiencies in its IT purchases and investments to
  reduce costs.

Organizational Structure Marginalizes the Agency CIO

  Over its 50-year history, NASA‟s organizational structure has valued autonomy.
  Dispersion of authority between Headquarters, the Mission Directorates, and the Centers
  is the cornerstone of NASA‟s program and project governance. NASA has traditionally
  given its Centers and project managers the autonomy to independently conceive projects,
  develop specifications, and supervise contractors. In line with this philosophy, when
  NASA chartered the Agency CIO position in 1995, the authority of the position was
  intentionally limited to ensure that Agency program offices and Centers would retain
  broad flexibility in managing IT activities related to their projects. However, with this
  autonomy comes issues of organizational control, coordination, reporting requirements,
  and the manner in which information flows between Agency decision-makers. A recent
  external review of NASA‟s overall governance and decision-making commissioned by
  the Strategic Management Council found that the Agency‟s highly matrixed
  organizational structure adds complexity to decisions involving issues that cross Center,
  Mission, or functional chains of command.32



  31
       NASA OIG, “NASA‟s Process for Acquiring Information Technology Security and Assessment and
       Monitoring Tools” (IG-13-006, March 18, 2013).
  32
       NASA Governance and Decision Making Discussion Document, McKinsey & Company, May 1, 2011.



REPORT NO. IG-13-015                                                                                15
                                                                                                               RESULTS



     We found that IT management is one area in which this separation has resulted in a “turf
     war” between three distinct interests – the OCIO, the Mission Directorates, and the
     Centers. For example, each Mission Directorate and Center employs their own CIO and
     IT security personnel, resulting in hundreds of independently operated networks and tens
     of thousands of computers and other IT hardware that is outside of the control or
     oversight of the OCIO. NASA policy states that the NASA CIO has the responsibility,
     authority, and accountability to develop and maintain an effective Agency IT governance
     structure. However, in practice, resistance from the Mission Directorates and the Centers
     to relinquish control over IT funding decisions, coupled with the ability of these entities
     to operate autonomously by funding for their project-level IT systems, significantly limits
     the Agency CIO‟s oversight and authority.

     In March 2010, the OCIO surveyed the members of NASA‟s three IT governance boards
     concerning the effectiveness of the Agency‟s IT governance structure. A majority of
     board members responded that NASA‟s IT governance structure was not effective for
     Mission IT, decisions were made outside of the governance structure, intended benefits of
     IT investments were not tracked or realized, and officials lacked sufficient visibility into
     IT spending in order to make informed decisions.

     Agency CIO Has Limited Authority. Having numerous Agency officials with the same
     title and similar roles, not all of whom report to the Agency CIO, dilutes the Agency
     CIO‟s authority. NASA employs 1 CIO at the Agency level, 10 CIOs at the Center level,
     1 CIO at the Jet Propulsion Laboratory, 1 CIO at the NASA Shared Services Center, and
     1 CIO within each of the Mission Directorates. This structure both undermines the
     Agency CIO as the ultimate decision authority and blurs the lines of accountability and
     responsibility. For many years, Center CIOs reported to their respective Center
     Directors. Although the Agency changed this reporting structure in 2010 and the Center
     CIOs now report to the Agency CIO, some Center CIOs told us that because Center
     Directors still control Center IT budgets, they saw no operational difference since the
     change other than that the Agency CIO now conducts their annual performance
     evaluations.

     Moreover, the Agency CIO is the only one of seven “Chief” positions at NASA that does
     not report directly to the Agency Administrator.33 This reporting structure is out of line
     with Federal policy and best practices.34 In our judgment, affording the Agency CIO the
     same visibility as the other Chiefs sends a message about the significance of IT and
     would better ensure that NASA‟s IT posture aligns with the strategic direction of the
     Agency. For the Agency CIO to be in the best position to bring about fundamental
     changes to NASA‟s IT governance, the full awareness and support of the NASA
     Administrator and senior management staff is required.


     33
          The Chief Financial Officer, Chief Scientist, Chief Technologist, Chief Engineer, Chief Safety and
          Mission Assurance, and Chief Health and Medical Officer all report to the Administrator.
     34
          44 USC Chapter 35, Coordination of Federal Information Policy.



16                                                                                         REPORT NO. IG-13-015
RESULTS



  Furthermore, the Mission Directorate CIOs do not report to the Agency CIO or the
  Center CIOs, but rather to the Associate Administrators of the Directorates. The
  Associate Administrators control the Mission Directorates‟ IT budgets and funding,
  which run into the hundreds of millions of dollars. Mission Directorate CIOs act as a
  liaison between the Mission Directorates and the OCIO by attending ITMB meetings and
  responding to OCIO data calls but are not involved in making Agency-wide IT strategic
  decisions. The Mission Directorate CIOs told us they do not feel included or thought of
  as partners by the OCIO and that the OCIO does not place sufficient emphasis on
  developing, implementing, and managing enterprise level infrastructure that meets the
  Mission Directorates‟ needs.

  The significant amount Mission Directorates spend on IT purchases each year requires
  full visibility and integration between the OCIO, the Mission Directorate CIOs, and the
  Center CIOs. In our judgment, it is crucial that the Mission Directorate CIOs provide the
  OCIO with visibility into Mission Directorate IT projects, and in turn promote Agency-
  wide CIO initiatives within their respective directorates. Further, the Agency CIO should
  ensure that Mission interests are considered in the development of Agency-wide IT
  requirements. Without fundamental changes to NASA‟s current IT governance structure,
  we do not believe these goals can be accomplished.

  In prior audit work, we found that NASA‟s multi-layered, organizationally, and
  geographically dispersed structure has led to wide variations in IT processes and a lack of
  awareness of and adherence to Agency IT policy. For example, in a December 2010
  report, we found that IT personnel at three Centers were unfamiliar with and therefore did
  not follow NASA policy relating to the sanitization of excess IT equipment, which could
  lead to the unintended release of sensitive NASA data.35 Our report highlighted the
  disparity in processes at four Centers and a lack of awareness and adherence to Agency
  policy requirements that resulted in one Center selling and preparing for sale computers
  that contained sensitive data. We also found a lack of accountability for IT equipment,
  including one Center that excessed hard drives in an unsecured dumpster accessible to the
  public.

  Similarly, our recent special review of NASA‟s multi-year effort to encrypt its laptop
  computers pointed to weaknesses related to the Agency‟s IT governance.36 In February
  2012, the NASA Inspector General testified that only 1 percent of NASA portable
  devices including laptops had been encrypted compared to a Federal Government-wide
  encryption rate at the time of 54 percent.37 On October 31, 2012, an unencrypted NASA
  laptop containing personally identifiable information for more than 40,000 individuals
  was stolen from the vehicle of a NASA employee. As a result of this loss, NASA

  35
       NASA OIG, “Preparing for the Space Shuttle Program‟s Retirement: A Review of NASA‟s Disposition
       of Information Technology Equipment” (IG-11-009, December 7, 2010).
  36
       NASA OIG “NASA‟s Effort to Encrypt its Laptop Computers (Special Report, December 17, 2012).
  37
       NASA Inspector General, testimony before the Subcommittee on Investigations and Oversight, House
       Committee on Science, Space, and Technology, February 29, 2012.



REPORT NO. IG-13-015                                                                                      17
                                                                                                    RESULTS



     provided credit monitoring services to the affected individuals, which the Agency
     estimates could cost up to $850,000. Following this incident, the NASA Administrator
     accelerated the Agency‟s deadline for encrypting its laptop computers by several months,
     and the Agency estimated that this expedited effort cost at least $259,000, not including
     the time civil servants devoted to the project. Our review found that the highly
     decentralized nature of IT management at the Agency was one of the factors that
     contributed to the repeated delays in NASA‟s full-disk encryption effort for its laptop
     computers. For example, we found that the OCIO did not have a complete inventory of
     Agency IT assets, which made it difficult to ensure that all laptops had been accounted
     for and encrypted.

     The issues currently challenging the NASA CIO are not new and have been raised
     repeatedly since the position was created. In response to both internal and external
     reviews, the OCIO has often advocated solutions that rely on “improved collaboration”
     between the OCIO, the Centers, and the Mission Directorates. Most recently, in a draft
     report to Congress, the Agency CIO proposed reducing cyber-attacks by coordinating
     among Agency and Mission security stakeholders to establish a strategy that standardizes
     procedures, policies, and tools deployed across NASA.38

     While coordination and collaboration are important components of any IT strategy, we do
     not believe that coordination and collaboration alone will be sufficient to overcome the
     issues we and others have identified. NASA‟s autonomy of operations for IT matters
     prevents the Agency CIO from taking and enforcing meaningful actions, and instead
     reduces the position to issuing calls for increasing “cooperation and communication” –
     calls that at least up to this point have gone unanswered. In short, the Agency‟s culture
     and current structure hinders the CIO‟s ability to implement and enforce sound IT
     governance initiatives.


Responsibilities and Interaction between IT Boards Unclear

     The ITMB, BSMB, and IT PMB all play a role in decision making for and oversight of
     Agency IT infrastructure projects. In addition, NASA has established numerous lower-
     level boards and working groups to discuss IT issues. We found that a lack of
     documentation and training regarding the roles and interrelationships of these boards and
     working groups has led to confusion over the information presented to and the procedures
     for communicating between them. The boards‟ policies and charters are unclear and only
     add to the confusion. As a result, the boards‟ value in making informed decisions about
     issues like future IT acquisitions and security has been greatly diminished.

     NASA‟s governance structure calls for coordination and collaboration between the three
     primary boards and the numerous underlying service boards and working groups;

     38
          NASA Draft Report, “Implementation of Administrative Remedy Regarding Cyber Security,” pursuant
          to H.R. 112-169 accompanying H.R. 2596.



18                                                                                   REPORT NO. IG-13-015
RESULTS



  however, several of the IT managers we interviewed did not understand the structure of
  the boards or their interaction and cited poor communication between the groups. We
  also found confusion as to how and what information is passed from the service boards
  and working groups to the primary boards where decisions are made. For example, one
  ITMB member told us he had difficulty understanding the ITMB‟s purpose, who is the
  responsible party, and what role the subordinate boards played in the IT governance
  process. Several other ITMB members echoed these comments. Moreover, NASA
  policy and the charters of the primary boards do not align. For example, the policy
  purports to define the boards‟ jurisdictions by reference to criteria in the charters, but the
  charters do not contain this referenced information.

  As a case study, we reviewed the actions of the IT governance boards relating to the
  Agency‟s implementation of full disk encryption and found the project circumvented the
  regular approval process. According to the encryption implementation plan, the IT PMB
  should have overseen the project. However, the encryption team requested a waiver to
  designate the ITMB as the governing body because the project was being deployed
  within the Centers‟ infrastructure. In the end, neither board approved the project
  implementation plan. Instead, one of the subsidiary boards – the End User Services
  Board – provided final approval of the implementation plan. Although the Board‟s
  charter states that it was created to address issues like the encryption initiative, the risk,
  visibility, and complexity of the encryption project far exceeded the Board‟s established
  authority. Further, NASA did not follow its governance requirements and began
  installing encryption software on Agency laptops in March 2012, 3 months before
  completion of the Operational Readiness Review.39 Prior to implementation, it was
  discovered that the encryption software was not compatible with the Agency‟s personal
  identity verification cards and the vendor had to modify the software, further delaying
  implementation. According to the head of the encryption implementation team, properly
  vetting the encryption software through the governance process may have avoided some
  of the compatibility issues and challenges encountered during implementation.

  Center CIOs, Center CISOs, and Mission Directorate CIOs consistently expressed the
  opinion that while the boards are great forums for collaboration among peers, important
  issues and initiatives are not consistently presented to all applicable boards. For example,
  the Agency CIO established the IT Security Advisory Board (ITSAB) to serve as a
  resource on information security issues for the NASA IT community. However,
  members of the ITSAB stated that not all the issues presented to the ITMB were first
  vetted through the ITSAB. Moreover, board members told us that they were confused
  about the purpose of the ITSAB, including its authority and integration with other parts

  39
       NASA Procedural Requirements (NPR) 7120.7, “NASA Information Technology and Institutional
       Infrastructure Program and Project Management Requirements,” November 3, 2008, defines key decision
       points and milestones that must be presented to the governance boards prior to continuing a project. The
       Operational Readiness Review determines that the project is ready to go-live with the system or service;
       requirements have been met; the functionality, performance, and security controls have been thoroughly
       tested; procedures are in place for operations; the users have been adequately trained; and the
       organization responsible for operations and sustaining engineering is ready to assume responsibility. It
       ensures a security plan is in place and that system authorization has been received.



REPORT NO. IG-13-015                                                                                              19
                                                                                            RESULTS



     of the governance structure. These officials said that not involving IT security officials in
     the initial planning phase of Agency projects means that NASA is often forced to react to
     security-related issues that arise during implementation rather than planning for them
     ahead of time. Representatives from the IT Security Division acknowledged these same
     issues and are currently working to re-charter and improve integration of the ITSAB
     within the IT governance structure.

     Officials we interviewed also expressed concern that there was little to no vertical
     communication between the boards. For example, several reported that the Agency
     Deputy CIO for Security was the single point of communication to advocate to the
     primary boards issues raised by the ITSAB, even though this is not how the process was
     designed in the ITSAB charter and the Deputy CIO rarely attended ITSAB meetings.
     Several ITSAB members told us they were not satisfied with the level of communication
     between the boards. For example, one member commented that “given the lack of IT
     security participation in the OCIO IT governance model, or outreach from OCIO IT
     security management, the Center CISOs do not have insight into an Agency/OCIO
     strategy and priorities for IT security at NASA, if such strategy and priorities exist.”
     Members of the ITSAB also stated that they did not understand how the board fits into
     the Agency‟s overall IT governance structure. Specifically, several CISOs stated that it
     was not clear whether issues discussed at ITSAB meetings were relayed to higher-level
     boards and noted they often did not receive responses to their input. Overall, we found
     that the number of boards coupled with confusion over how they interrelate contributes to
     the ineffectiveness of NASA‟s IT governance structure.

     Moreover, the Mission Directorate CIOs and the Center CIOs told us that the Mission
     Directorate personnel often work outside of established procedures because of the
     amount of time it takes a decision to make its way through the current governance
     process. Mission Directorate CIOs expressed their concerns with the formal governance
     process citing time constraints, impact of security on the mission, and the potential for
     nonapproval. One concern is that IT initiatives routed through the IT governance process
     tend to lag behind Mission Directorate requirements and this makes the process appear
     nonresponsive or not sufficiently dynamic to meet the Mission Directorates‟ needs.
     Another concern is that the Mission Directorates often cannot wait for Agency decisions
     to occur or be implemented on new IT initiatives. This lack of coordination results in
     duplication of IT infrastructure and applications as well as restricted information and
     resource sharing between and across the Agency.

     Finally, we found that NASA IT managers tend to rely on informal relationships rather
     than formalized business processes to make IT decisions. Many Center CIOs attribute
     the success of IT initiatives at their Centers to strong collaboration between Center IT and
     Mission Directorate representatives at the local level. The Center CISOs who told us
     they felt comfortable with the security posture of the Mission Directorate IT assets at
     their Centers have fostered personal, collaborative relationships with the Mission
     Directorate representatives at their Centers. For example, the CISO at Johnson Space
     Center noted that because Mission Directorates answer to a different chain of command,



20                                                                           REPORT NO. IG-13-015
RESULTS



  he is not able to make the final decision in matters of design, procurement, and
  implementation. However, the Center CIO noted that many of the Mission Directorate
  representatives at Johnson work with him and Center IT security personnel to align their
  activities with the Center‟s efforts. In sum, we found that collaboration on IT issues that
  takes place at the Centers generally is not facilitated by the formal IT governance
  structure, but rather is a result of the willingness of the parties to work together in the best
  interests of the Agency.

CIO Cannot Enforce Security Measures over a Majority of IT
  Assets

  Over the past several years, our audits have repeatedly identified poor management
  processes and inadequate operational and technical controls that affect NASA‟s ability to
  protect the information and information systems vital to its mission. Specifically, we
  have reported on the challenges NASA has implementing a new continuous monitoring
  methodology, a process for protecting networks from cyber-attacks, a plan for addressing
  known security weaknesses, and full disk encryption for its tens of thousands of laptop
  computers.

  For example, in 2010 and 2011 we reported shortcomings as NASA moved from a
  compliance-focused “snapshot” approach for measuring the security of its IT systems to a
  continuous monitoring approach that seeks to perform real-time security monitoring.40
  Specifically, our audits found that the Agency‟s continuous monitoring program was
  ineffective because NASA:

            did not have a complete inventory of the devices connected to its networks and
             thus could not verify that 100 percent of Agency computers undergo monitoring
             to ensure they remain securely configured, free of technical vulnerabilities, and
             adequately patched;

            did not monitor configuration settings of Agency network servers to certify that
             these critical resources remained securely configured; and

            had not established baselines for securely configuring widely used Agency
             computer operating systems, including Windows servers.

  We concluded that collectively, these issues inhibited the NASA CIO‟s awareness of the
  Agency‟s overall security posture and significantly hindered the Agency‟s ability to
  secure its networks and protect sensitive information.



  40
       NASA OIG, “Audit of NASA‟s Efforts to Continuously Monitor Critical Information Technology
       Security Controls” (IG-10-019, September 14, 2010), and “NASA Faces Significant Challenges
       Transitioning to a Continuous Monitoring Approach for its Information Technology Systems”
       (IG-12-006, December 5, 2011).



REPORT NO. IG-13-015                                                                                 21
                                                                                                           RESULTS



     In March 2011, we reported that NASA needed to improve its processes for protecting
     Mission networks from Internet-based cyber-attacks.41 Specifically, we found that six
     computer servers associated with IT assets that control NASA spacecraft and contain
     critical data had vulnerabilities that could allow a remote attacker to take control of or
     render them unavailable. Moreover, once inside the network, the attacker could use the
     compromised computers to exploit other weaknesses we identified that could severely
     degrade or cripple NASA operations. We also found network servers were not securely
     configured and, as a result, exposed encryption keys, encrypted passwords, and user
     account information to potential attackers.

     Lastly and as previously discussed, in December 2012, we reported that issues and
     challenges associated with the implementation of full-disk encryption on NASA‟s laptop
     computers caused NASA to miss its target implementation dates, thereby leaving
     sensitive operational data vulnerable to theft. Specifically, we found that NASA's
     full-disk encryption effort was repeatedly delayed due to slow implementation of its
     computer services contract, the highly decentralized nature of information technology
     management at the Agency, and a lack of sufficient internal controls. Moreover, the
     Agency did not have a reliable accounting of the number of laptops in its possession and
     therefore was not likely to be able to ensure that encryption software was installed on
     100 percent of required machines by the deadline.42

     NASA Culture Inhibits CIO’s Ability to Secure Assets. Federal law designates the
     Agency CIO as the official responsible for developing IT security policies and procedures
     and implementing an Agency-wide IT security program. However, we found that the
     NASA CIO is unable to enforce implementation of recommended or mandated IT
     security programs because of the autonomous nature of NASA operations. NASA‟s IT
     environment is diversified with hundreds of networks owned and operated by the Mission
     Directorates and Centers. Mission Directorates fund their computer networks and
     Directorate personnel are responsible for IT security, risk determination, and risk
     acceptance. Moreover, Mission Directorate personnel make the determination on how to
     secure their networks outside of the Agency CIO‟s authority. Because there is no one
     group responsible for securing NASA‟s networks, there is little standardization across the
     Agency. NASA‟s networks include numerous hardware configurations and multiple
     operating systems at varying version and security levels that make securing the Agency‟s
     portfolio of IT assets extremely complex. For example, even though the OCIO manages
     Web content at the Agency level, the Mission Directorates and Centers operate and fund
     3,447 websites.43 This large number of public-facing websites provides numerous entry


     41
          NASA OIG, “Inadequate Security Practices Expose Key NASA Network to Cyber Attack” (IG-11-17,
          March 28, 2011).
     42
          We made five recommendations in this review to help protect NASA‟s information and prevent
          unauthorized access to data stored on its laptop computers such as developing a better method to account
          for laptops and reexamining the role of Agency IT officials for safeguarding mobile IT assets. The
          Administrator agreed with each of our recommendations and proposed corrective actions.
     43
          NASA reported this information in the Agency‟s Web Improvement Plan provided to OMB in 2011.



22                                                                                         REPORT NO. IG-13-015
RESULTS



  points to the Agency‟s networks potentially allowing unauthorized access to sensitive
  information and technology.

  Further complicating NASA‟s ability to secure its networks is a lack of a complete
  inventory of IT assets. Several CISO‟s we spoke to stated that there is no visibility over
  the complete inventory of IT assets, and individual organizations often do not have
  accurate and complete information on their assets, configurations, and security
  vulnerabilities. We found that this condition persists across the Agency. Five Center
  CIOs told us they could not account for 100 percent of the IT systems and hardware at
  their Centers. According to the CISOs, Agency efforts to establish a consistent,
  consolidated IT security inventory have been thwarted by inconsistent enforcement of the
  policies and implementation of the tools meant to capture the information, pockets of
  NASA organizations not agreeing to provide requested information, and inconsistent or
  lack of guidance from OCIO IT security management. One Center CISO stated that
  some Mission Directorate personnel at his Center are not diligent in following Agency
  directed security policy and that in some cases Mission Directorates have attempted to
  hide assets; thus circumventing Agency requirements.

  Governance Model Fails to Adequately Address Security. We have consistently
  identified the lack of strong governance as an overarching reason for significant and
  ongoing IT security deficiencies at NASA. In May 2010, we reported that only
  24 percent of applicable computers on a network that supports mission-critical spacecraft
  and science operations were monitored for critical software patches and only 62 percent
  were monitored for technical vulnerabilities.44 During detailed control testing, we
  identified several high-risk vulnerabilities on a system that provided support to manned
  and unmanned spacecraft. If exploited, these vulnerabilities could allow a remote
  intruder to gain control of the system or render it unavailable.

  These deficiencies occurred because NASA had not put in place an oversight structure to
  maintain the security of this mission-critical network and to ensure that Agency IT
  security policies and procedures were followed. In response to our report, the Agency
  agreed to: (1) designate a NASA Directorate or Center to immediately establish an
  oversight process to include monitoring of systems for the presence of critical patches
  and technical vulnerabilities and (2) review all other Agency Mission network IT security
  programs to determine whether each contains an effective oversight process. However,
  almost 3 years later these actions have yet to be completed.

  In her February 2012 Congressional testimony, the Agency CIO acknowledged that
  NASA‟s culture does not support building effective cyber security processes. The
  Agency CIO stated that the largest impediment to effective IT security is persuading and
  changing the Mission Directorate culture. Center CISOs we spoke with echoed this
  sentiment, stating that they do not believe that IT security has been adequately built into
  the Agency‟s IT governance model. The consensus during our interviews was that
  44
       NASA OIG, “Review of the Information Technology Security of [a NASA Computer Network]”
       (IG-10-013, May 13, 2010).



REPORT NO. IG-13-015                                                                            23
                                                                                                      RESULTS



     security is an afterthought and NASA is operating primarily in a reactive mode to
     security incidents. In large part, IT personnel believe that this is due to the lack of
     consideration of IT security when designing and implementing IT initiatives. The Center
     viewpoint is that the Agency makes decisions without consulting security personnel at the
     Centers on potential security impacts. For example, several Center IT security
     representatives stated that security issues are discussed at the higher-level boards without
     consulting the Center-based CISO community through the ITSAB.

     Moreover, we found consensus among the Center CIOs and CISOs that the SOC cannot
     function effectively because it does not have adequate visibility over NASA‟s Mission
     networks. The SOC is the OCIO‟s central coordination point for Agency-wide security
     incident detection, response, and reporting and provides centralized, continuous
     monitoring of computer network traffic entering and leaving NASA Centers and includes
     an information system for Agency-wide coordination, tracking, and reporting of security
     incidents. However, the SOC has limited visibility of NASA‟s Mission networks and no
     visibility of the Agency‟s high-performance computing networks (networks with
     transmission rates of 10Gig +).45 Under the current design, the Mission Directorates are
     responsible for implementing their own incident management program. Consequently,
     NASA relies on Mission Directorates, which control nearly 62 percent of NASA‟s annual
     IT spending, to self-report intrusions or other security incidents.

     SOC officials told us that the Mission Directorates are reluctant to allow visibility to their
     networks and that their biggest challenge is changing this culture. The OCIO requested
     funding in NASA‟s 2013 budget to extend SOC coverage to identify and include the
     Mission networks. However, even if NASA were to receive this funding, Mission
     Directorates may remain reluctant to grant the SOC access and the Agency CIO lacks the
     authority to force compliance. The inability of the NASA CIO to ensure that all of the
     Agency‟s computer networks implement key IT security controls places critical IT assets
     at risk of compromise. This is particularly troubling given previous findings that Mission
     Directorates often lack effective IT security and IT assets operated by these Directorates
     do not consistently implement key IT security controls.46

     IT Governance across Government

     Although NASA‟s mission is unique, the challenges the Agency faces in managing a
     decentralized IT environment are not. We examined IT governance at three agencies that
     like NASA are geographically diverse, independently operated, and support thousands of
     users – Interior, VA, and the USPS. Each of these organizations has moved away from a
     decentralized model to a consolidated, centralized structure. The VA and Interior began
     this process during the past 8 years and these efforts are ongoing. The USPS centralized


     45
          NASA OIG, “Review of NASA‟s Computer Security Incident Detection and Handling Capability”
          (IG-12-017, August 7, 2012).
     46
          NASA OIG, “Review of the Information Technology Security of [a NASA Computer Network]”
          (IG-10-013, May 13, 2010).



24                                                                                 REPORT NO. IG-13-015
RESULTS



  its IT infrastructure in the 1990s, but recently revised its IT governance structure to
  ensure that all IT activities fall within the purview of the Agency CIO.

  Prior to centralization, each of Interior‟s nine bureaus employed a CIO and technical staff
  to manage and provide IT services to approximately 70,000 employees at more than
  2,400 locations. Both Interior‟s Inspector General and the GAO repeatedly reported that
  the Department‟s IT and cyber security governance was inefficient, wasteful, and lacked
  accountability. In 2010, the Secretary of the Interior placed the Department‟s entire IT
  infrastructure under the purview of the Department‟s CIO, and all of the IT services,
  personnel, and infrastructure owned and operated by other offices were transferred to the
  CIO. The Secretary instructed the Department to complete the transition within 4 years.

  Likewise, the VA had a decentralized IT governance structure spread across 3 divisions
  and more than 1,000 medical centers, clinics, nursing homes, and veterans‟ centers. In
  2005, in response to a statutory directive, the VA moved to a centralized model under
  which the Agency CIO has control over all IT resources.47 This was a multi-year effort
  centralizing all IT budgeting, planning, and development, including full control of the
  VA‟s IT budget and staff, under the Agency CIO.

  Officials at these organizations told us that based on their experience, unless the Agency
  CIO has the full support of the head of the organization and is given the ultimate decision
  and enforcement authority over all areas of IT in the organization, the CIO would not be
  able to implement an effective and successful IT governance structure. The Interior CIO
  said he believed none of the changes at his Department could have taken place without
  the full support of the Secretary.

  Another key aspect of the transformation at these organizations was eliminating the
  confusion about “who was in charge” by ensuring that all personnel with CIO
  responsibilities report to the Agency CIO and by reserving the title of CIO solely for that
  official. Each of the organizations we met with revised their governance structure to
  employ only one CIO who reported to the head of the organization and who had authority
  and responsibility over all IT resources and budgets. This change helped clearly
  delineate the CIO as the ultimate decision authority over IT matters. Prior to
  centralization, Interior employed more than 30 individuals with the CIO title. Similarly,
  USPS revised the job titles of all CIOs in its organizational units to clarify that the
  Agency CIO has ultimate decision authority for IT matters. According to the VA and
  Interior CIOs, the reorganization of IT functions under one official responsible for IT
  across their organizations resulted in increased efficiency and security, as well as lower
  operating costs.

  We also found that centralization of the IT function at these organizations resulted in
  improved control over IT funding and expenditures. At USPS, all IT purchases go
  through a single purchasing unit. At Interior, the CIO must approve all IT purchases that
  47
       H.R. 4061, „„Department of Veterans Affairs Information Technology Management Improvement Act of
       2005.”



REPORT NO. IG-13-015                                                                                      25
                                                                                                            RESULTS



     exceed $2,500.48 In addition, all major IT procurements are routed through a
     Department-level management board of contracting officers with specialized IT
     procurement experience. According to the Interior CIO, he has the authority to remove
     the warrant of any contracting officer that authorizes purchases outside of this approval
     system. According to Interior‟s CIO, the Department‟s bureaus initially were not
     receptive to turning over control of their funding to a Department CIO. However,
     Interior adopted the approach that having funding does not constitute the right to proceed
     with an IT initiative.

     Prior to centralization, the VA CIO had direct control over only 3 percent of the
     Department‟s overall IT budget and 6 percent of the Department‟s IT personnel. With
     support from the Secretary of Veterans Affairs and Congress, the VA centralized all IT
     budgeting, planning and development, and placed full control of the VA‟s IT budget and
     staff under the Assistant Secretary for Information and Technology (the CIO for the
     Agency). According to the VA CIO, the transition was not easy or quick – it took more
     than 2 years to identify all of the IT money and resources from the various parts of the
     agency. Prior to this transition, individual medical directors in the field had virtually
     complete control over decisions about IT investments, which had resulted in an ad hoc
     and disjointed IT system. The VA CIO told us that consolidating IT Department-wide
     resulted in a savings of $1.7 billion over 4 years; a successful, on-time IT product
     development rate of 90 percent compared to 30 percent prior to consolidation; and a
     40 percent increase in IT services provided without an increase in cost (no budget
     increase in the prior 3 years).

     According to the VA and Interior CIOs and the USPS CISO, restructuring the
     management of IT at these agencies has also improved the function of their governance
     boards and the security of their IT networks. At the VA, charters clearly explain the
     jurisdictions of the various boards and how they interact with one another. Similarly,
     vertical and horizontal coordination, reporting, and critical information flow between
     VA‟s IT governance boards allows for more transparent communication and decision
     making between them. All of the IT executives stressed the importance of having IT
     security representatives involved throughout the IT governance process to ensure that
     appropriate security measures are implemented from the initial stages of development of
     any IT project. At USPS, the CISO is involved in the planning phase of any new
     initiative and is an active participant in the IT governance process. With regard to
     security, the VA CIO stated that since consolidation the VA centrally monitors all
     systems, affording a comprehensive view of threats. Similarly, USPS reduced its
     operational networks from 18 to 1, and the consolidated network falls under the purview
     of the OCIO where it is monitored for security threats. Any security incidents identified
     at USPS flow through a centralized, security office.

     Interior, VA, and USPS officials told us that centralizing IT management across their
     agencies was a political, painful, and time-consuming process. At Interior, the
     48
          This threshold contrasts rather sharply with the $400 million on IT expenditures discussed previously
          that the NASA CIO admitted no awareness of until a year after the money was spent.



26                                                                                         REPORT NO. IG-13-015
RESULTS



   transformation was a multi-year initiative that required cooperation from each bureau and
   office, and Interior officials spent over a year just planning the process. According to a
   Department report, the consolidation will result in approximately $500 million in cost
   savings, increased employee efficiency, and elimination of waste. Moreover, in 2011 for
   the first time in nearly a decade the Interior‟s OIG did not identify IT or IT security as a
   top management challenge for the Department.

   With mission critical assets at stake and IT budgets shrinking, NASA must take a holistic
   approach to operating its vast portfolio of IT systems. In our judgment, centralization of
   the Agency‟s IT framework under a Headquarters-based CIO would improve NASA‟s
   overall management of IT, including planning, acquisition, and security, while increasing
   control over IT expenditures and accountability. Because of the integrated nature of IT
   infrastructure throughout the Agency‟s operations, spreading oversight of and authority
   over IT assets among the Agency CIO, the Mission Directorate CIOs, and the Center
   CIOs has led to a governance structure that is overly complex and ineffective. Although
   coordination and collaboration between these entities will always be necessary, we
   believe that both NASA‟s history and the experience of the other agencies supports a
   recommendation that NASA move to a more centralized approach to IT governance.


Recommendations, Management’s Response, and Evaluation of
  Management’s Response

For almost 2 decades, the OIG and GAO have reported on a variety of issues related to
NASA‟s decentralized IT operations, the limited authority of the Agency CIO, and
significant lapses in IT security. However, during this time NASA has made only
incremental changes in its approach to IT governance. In our judgment, NASA must make
fundamental changes to its IT governance model and significantly strengthen the Agency
CIO‟s authority in order to address serious IT challenges. The retirement of the Agency
CIO in April 2013 presents NASA with an opportunity to reevaluate its IT organizational
structure and personnel resources.

The NASA Administrator must be the driving force behind this effort and ensure that the
Agency has the leadership in place not only in the OCIO but also at the Centers and in the
Mission Directorates to transform NASA‟s IT management culture. To overcome the
barriers that have resulted in inefficient and ineffective management of the Agency‟s IT
assets and operations, we recommend that the NASA Administrator:

Recommendation 1. Consolidate the overall governance of IT within the OCIO to ensure
adequate visibility, accountability, and integration into all mission-related IT assets and
activities.

   Management’s Response. The Administrator concurred with our recommendation,
   stating that the OCIO will implement the IT Governance model approved by the Mission
   Support Council (MSC) in November 2011 and will further adapt implementation to



REPORT NO. IG-13-015                                                                              27
                                                                                         RESULTS



     address the issues identified in our report. The Administrator stated that as the model is
     phased in it will provide the OCIO with greater visibility into both institutional and
     Mission IT investments and assets and lead to greater accountability and integration. The
     Agency plans to have the model in place by May 30, 2014.

     Evaluation of Management’s Response. Management‟s proposed actions are
     responsive; therefore, the recommendation is resolved. We will close the
     recommendation upon verification that the MSC model provides the OCIO with adequate
     visibility, accountability, and integration into Mission-related IT assets and activities.

Recommendation 2. Require the Agency CIO to approve all IT procurement expenditures
over an established threshold. The threshold should capture the majority of IT expenditures
regardless of procurement instrument, to give the CIO visibility and authority over all
Agency IT assets.

     Management’s Response. The Administrator concurred with our recommendation and
     stated that the OCIO will work with the Office of the Chief Financial Officer and the
     Office of Procurement to develop process improvements and implement any required
     financial system changes. In addition, through the Enterprise Architecture program the
     OCIO will define and document a technical baseline to make it easier to align
     procurements with Agency strategic direction. The Agency plans to complete these
     actions by December 31, 2013.

     Evaluation of Management’s Response. Management‟s proposed actions are
     responsive. We will close the recommendation upon verification that the Agency
     established an approval threshold that captures the majority of IT expenditures.

Recommendation 3. Reevaluate the relevancy, composition, and purpose of the existing
boards in light of changes made to the Agency‟s IT governance structure.

     Management’s Response. The Administrator concurred with our recommendation,
     stating that the incoming Agency CIO will evaluate the composition, roles,
     responsibilities, reporting structure, and processes of the Agency‟s IT governing boards.
     In addition, as an immediate step the Acting CIO has implemented an I3P Organizational
     Assessment that includes a review of I3P governance and the roles, responsibilities, and
     decision rights of the Program Office, each Service Office, and the Center CIOs. The
     Agency plans to complete its assessment of the Boards within 180 days of appointment of
     a new Agency CIO.

     Evaluation of Management’s Response. Management‟s proposed actions are
     responsive; therefore, the recommendation is resolved and will be closed upon
     completion and verification of the proposed actions.




28                                                                         REPORT NO. IG-13-015
RESULTS



Recommendation 4. Require the use of governance boards for all major IT decisions and
investments, including those made by Mission Directorates.

   Management’s Response. The Administrator concurred with our recommendation,
   stating that although programs and projects will continue to have the ability to manage
   highly specialized Mission IT, under the MSC-approved governance model the Agency
   CIO will have approval rights over institutional and non-highly specialized Mission IT
   investments. Additionally, the Agency CIO will direct Center CIOs to work with Center
   Directors to ensure that IT funds are used in alignment with IT priorities. In the same
   way, the Agency CIO will ensure that IT governance boards used for major IT decisions
   and investments are responsive to Mission and Center requirements. This action will be
   completed by May 30, 2014.

   Evaluation of Management’s Response. While the Administrator concurred with our
   recommendation, he indicated that highly specialized IT – defined by NASA as IT that is
   a part of, internal to, or embedded in a Mission platform – will continue to be managed
   by program or project managers and not be subject to approval by the Agency CIO. It is
   not clear to us based on this response whether the Agency will require the use of IT
   governance boards for all major NASA IT investments or whether it will waive this
   requirement for highly specialized Mission IT. We encourage the Mission Directorates
   to work with the Agency CIO to develop a process that increases the Agency CIO‟s
   oversight and input into all Mission IT investments to ensure that highly specialized
   Mission IT investments are not excluded from the Agency‟s IT Governance process. The
   recommendation is resolved and will be closed upon completion and verification that
   NASA‟s IT governance boards play a substantive oversight role in all major Agency IT
   investments.

Recommendation 5. Revise the board charters to include all information critical to
ensuring the effective use of the boards and develop a plan to educate IT managers and
personnel regarding the charters and the requirements and interrelationship of the boards.

   Management’s Response. The Administrator concurred with our recommendation,
   stating that the OCIO will review and revise as necessary all board charters to improve
   their effectiveness. Furthermore, the OCIO will establish governance thresholds that
   clearly define the scope and authority of each board following the example of the
   Agency‟s governing council thresholds. Finally, the OCIO will implement a plan to
   increase governance awareness. The Agency plans to complete these actions within
   180 days after appointment of a new Agency CIO.

   Evaluation of Management’s Response. Management‟s proposed actions are
   responsive; therefore, the recommendation is resolved and will be closed upon
   completion and verification of the proposed actions.




REPORT NO. IG-13-015                                                                         29
                                                                                           RESULTS



Recommendation 6. Make the Agency CIO a direct report and revise the job titles of the
Center and Mission Directorate CIOs to delineate roles and responsibilities more clearly.

     Management’s Response. The Administrator partially concurred with our
     recommendation, stating that NASA will revise the current reporting structure to make
     the Agency CIO a direct report to the Administrator and revise the job title of Mission
     Directorate CIOs. In addition, the OCIO will work to better define the roles and
     responsibilities of Center and Mission Directorate CIOs. The Agency plans to complete
     these actions by September 30, 2013. However, the Agency declined to revise the job
     title of Center CIOs explaining that they have a policy-making role analogous to Center
     Chief Financial Officers.

     Evaluation of Management’s Response. The Agency‟s proposed actions are responsive
     to our recommendations regarding the reporting relationship of the NASA CIO and the
     job title of the Mission CIOs. Although we believe that revising the job title of the
     Center CIOs would help delineate their roles and responsibilities more clearly, we
     acknowledge that there are other ways by which the Agency can accomplish this goal.
     Therefore, the recommendation is resolved and will be closed upon verification that
     NASA has adequately defined the roles and responsibilities of Center CIOs.

Recommendation 7. Make the Mission Directorate CIO position a direct report to the
Agency CIO and the principal advocate for the IT needs of their respective Directorates.
Define and standardize the roles and responsibilities of the Mission Directorate CIOs to
ensure consistency. Mission Directorate CIOs should coordinate with the Agency CIO to
ensure that both Agency and Mission needs are considered in the development of
Agency-wide IT requirements.

     Management’s Response. The Administrator partially concurred with our
     recommendation, stating that NASA agrees that the Mission Directorates require a
     principal advocate for their IT needs who is also responsive to the Agency CIO. He
     stated that the OCIO and Mission Directorates will work together to define the roles,
     responsibilities, and reporting structures of the Mission Directorate CIOs to ensure
     consistency and accountability. However, the Administrator declined to make the
     Mission Director CIOs a direct report to the Agency CIO.

     Evaluation of Management’s Response. Although we continue to believe that making
     the Mission Directorate CIOs report directly to the Agency CIO would improve the
     CIO‟s visibility over Mission IT assets and activities, we acknowledge that there are
     other ways by which the Agency can accomplish this goal. Therefore, the
     recommendation is resolved and will be closed upon verification that the Agency has
     taken adequate steps to define the roles, responsibilities, and reporting structures of the
     Mission Directorate CIOs so as to ensure consistency and accountability.

Recommendation 8. In light of the changes recommended in this report, reevaluate the
resources of the OCIO to ensure that the Office has the appropriate number of personnel
with the appropriate capabilities and skill sets.


30                                                                           REPORT NO. IG-13-015
RESULTS



  Management’s Response. The Administrator concurred with our recommendation,
  stating that the new Agency CIO will conduct an organizational assessment to identify
  the resources and skill sets necessary to support the IT governance improvements and
  expanded responsibilities for the OCIO and Center CIO organizations. This action will
  be completed 180 days after a new CIO is appointed.

  Evaluation of Management’s Response. Management‟s proposed actions are
  responsive; therefore, the recommendation is resolved and will be closed upon
  completion and verification of the proposed actions.




REPORT NO. IG-13-015                                                                      31
APPENDIXES




                                                                         APPENDIX A


Scope and Methodology

  We performed this audit from April 2012 through April 2013 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives.

  To accomplish our objective, we interviewed 53 individuals from both inside and outside
  NASA. We conducted interviews with the NASA CIO, Center CIOs, Mission
  Directorate CIOs, and the Agency and Center CISOs. We also surveyed the Center and
  Mission Directorate CIOs and CISOs to gain an understanding of each stakeholders‟
  perspective on the current state of IT governance at NASA. Additionally, we interviewed
  the Associate CIO for Capital Planning and Governance, Deputy CIO for IT Reform,
  ACES End User Services Office, representatives from the Data-At-Rest Implementation
  Team, Chief of Data Center Consolidation, and representatives from the Security
  Operations Center to discuss the operational effectiveness of the current IT governance
  structure and its impact on Agency-wide initiatives.

  We conducted interviews with the Department of Veterans Affairs CIO, the Department
  of the Interior CIO, and the United States Postal Service CISO to discuss the design of
  their current IT governance structure and to identify lessons learned for benchmarking
  purposes that relate to NASA.

  Federal Laws, Regulations, Policies, and Guidance. We reviewed the following in the
  course of our audit work:

         OMB Memorandum M-11-29, “Chief Information Officer Authorities,” August 8,
          2011

         U.S. Chief Information Officer, 25 Point Implementation Plan to Reform Federal
          Information Technology Management, December 9, 2010

         U.S. Code Title 44 Chapter 35, Subchapter 3506 “Federal Agency
          Responsibilities”

         NPD 2800.1B, “Managing Information Technology,” March 21, 2008

         NPR 2800.1B, “Managing Information Technology,” March 20, 2009



REPORT NO. IG-13-015                                                                          33
                                                                                       APPENDIX A



           NPR 7120.7, “NASA Information Technology and Institutional Infrastructure
            Program and Project Management Requirements,” November 3, 2008

           NPD 2810.1D, “NASA Information Security Policy,” May 9, 2009

           NPR 2810.1A, “Security of Information Technology,” May 16, 2006

           NPD 1000.3D, “The NASA Organization with Change 37,” May 25, 2012

     Use of Computer-Processed Data. We did not use computer-processed data to perform
     this audit.


Review of Internal Controls

     We reviewed Federal regulations and NASA policies and procedures to determine
     NASA‟s internal controls for ensuring effective IT governance. We analyzed the
     execution of the policy requirements as it related to the internal control structure
     surrounding the IT governance boards, budgeting and spending, and project approvals.
     The control weaknesses we identified are discussed in the Results section of this report.
     Our recommendations, if implemented, will correct the identified control weaknesses.


Prior Coverage

     The NASA OIG has issued 10 reports of particular relevance to the subject of this report
     and GAO has issued 3. Unrestricted reports can be accessed at
     http://oig.nasa.gov/audits/reports/FY13 and http://www.gao.gov, respectively.

     NASA Office of Inspector General

     “NASA‟s Process for Acquiring Information Technology Security Assessment and
     Monitoring Tools” (IG-13-006, March 18, 2013)

     “NASA‟s Effort to Encrypt its Laptop Computers (Special Report, December 17, 2012)

     “Review of NASA‟s Computer Security Incident Detection and Handling Capability”
     (IG-12-017, August 7, 2012)

     “NASA Faces Significant Challenges in Transitioning to a Continuous Monitoring
     Approach for Its Information Technology Systems” (IG-12-006, December 5, 2011)

     “Inadequate Security Practices Expose Key NASA Network to Cyber Attack”
     (IG-11-017, March 28, 2011)




34                                                                          REPORT NO. IG-13-015
APPENDIX A



  “Preparing for the Space Shuttle Program‟s Retirement: A Review of NASA‟s
  Disposition of Information Technology Equipment” (IG-11-009, December 7, 2010)

  “Audit of NASA‟s Efforts to Continuously Monitor Critical Information Technology
  Security Controls” (IG-10-019, September 14, 2010)

  “Review of the Information Technology Security of a [a NASA Computer Network]”
  (IG-10-013, May 13, 2010)

  “Final Memorandum of NASA‟s Information Technology Capital Planning and
  Investment Control” (IG-06-017, September 14, 2006)

  “Final Memorandum on Review of Organizational Structure and Management of
  Information Technology and Information Technology Security Services at NASA”
  (IG-05-013, March 30, 2005)

  Government Accountability Office

  “Information Technology: DHS Needs to Further Define and Implement Its New
  Governance Process” (GAO-12-818, July 25, 2012)

  “Information Technology: NASA Needs to Remedy Vulnerabilities in Key Networks”
  (GAO-10-4, October 15, 2009)

  “NASA Chief Information Officer: Opportunities to Strengthen Information Resources
  Management” (GAO/AIMD-96-78, August 1996)




REPORT NO. IG-13-015                                                                   35
                       APPENDIX B




     MANAGEMENT COMMENTS




36            REPORT NO. IG-13-015
APPENDIX B




REPORT NO. IG-13-015   37
              APPENDIX B




38   REPORT NO. IG-13-015
APPENDIX B




REPORT NO. IG-13-015   39
              APPENDIX B




40   REPORT NO. IG-13-015
APPENDIX C




                                                     REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Associate Administrator
  Chief of Staff
  Acting Chief Information Officer
  Associate Administrator for Aeronautics Research
  Associate Administrator for Science
  Associate Administrator for Human Exploration and Operations
  Associate Administrator for Space Technology
  Associate CIO for Capital Planning and Governance
  NASA Advisory Council‟s Audit, Finance, and Analysis Committee

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Science and Space
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Operations
  House Committee on Science, Space, and Technology
     Subcommittee on Oversight
     Subcommittee on Space




REPORT NO. IG-13-015                                                       41
Major Contributors to the Report:
   Laura B. Nicolosi, Director, Mission Support Directorate
   Raymond Tolomeo, Director, Science and Aeronautics Research Directorate
   Julia K. Eggert, Project Manager
   Scott A. Riggenbach, Lead Auditor
   Jason D. Hensley, Auditor




REPORT NO. IG-13-015                                                         43
                                                                                          JUNE 5, 2013
                                                                        REPORT No. IG-13-015




                                                                                 OFFICE OF AUDITS

                                                                 OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY13/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L‟Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
